No. 20-350
In the

Supreme Court of the United States
Daniel Flores,
Petitioner,
v.
Christian Pfeiffer, Warden,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of A ppeals for the Ninth Circuit

Petitioner’s Reply Brief to
Respondent’s Opposition
Orly A hrony
Counsel of Record
A hrony A ppeals Law Group
401 Wilshire Boulevard, 12th Floor
Santa Monica, California 90401
(310) 743-7830
orly@ahronyappeals.com
Counsel for Petitioner
December 29, 2020
300942

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  iii
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
I.

F LORES ’ C O N F ESSIO N IS
INADMISSIBLE BECAUSE IT WAS
COERCED IN VIOLATION OF HIS
F I F TH A M EN DM EN T RIGHTS ,
I N D IRE C T C O N F LI C T W ITH
	ESTABLISHED LAW . . . . . . . . . . . . . . . . . . . . . 3
A. Flores Was Threatened with Death  . . . . . . 3
B. Flores’ Situation Was More Egregious
Than Fulminante, Lam, Dominguez,
And Meraz . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
1.

Arizona v. Fulminante  . . . . . . . . . . . . . 6

2. Lam v. Kelchner . . . . . . . . . . . . . . . . . . . 7
3.

Dominguez v. Stainer  . . . . . . . . . . . . . . 7

4. Meraz v. Pfeiffer . . . . . . . . . . . . . . . . . . . 8
C.	Respondent Misapplies The Law . . . . . . . . . 8

ii
Table of Contents
Page
D.	The Coercive Statements Were Not
	Harmless . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
II. FLORES IS NOT REQUESTING THIS
COURT TO ADOPT A NEW STANDARD
OF LAW; BUT RATHER TO SETTLE
THE LAW CONCERNING CASES
W HERE THE G O V ER N M E N T
EMPLOYED UNETHICAL TACTICS
TO O B TAI N C ON F ESSION S I N
CIRCUMVENTION OF THE RIGHT TO
COUNSEL. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
A. Massiah and Its Progeny Support That
an Informants’ “Active Elicitation” of
Incriminating Statements Constitutes
a Sixth Amendment Violation . . . . . . . . . . . 11
B. Cobbs’ “Offense Specific” Rule Is
	Inapplicable Here . . . . . . . . . . . . . . . . . . . . . 13
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

iii
TABLE OF CITED AUTHORITIES
Page
Cases:
Arizona. v. Fulminante,
499 U.S. 279 (1991)  . . . . . . . . . . . . . . . . . . . . . . 2, 6, 7, 9
Chapman v. California,
(1967) 386 U.S. 18 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Dominguez v. Stainer,
No. CV 12-8280 AG, 2014 WL 1779546
(C.D. Cal. Apr. 30, 2014) . . . . . . . . . . . . . . . . . . . passim
Kuhlmann v. Wilson,
477 U.S. 436 (1986)  . . . . . . . . . . . . . . . . . . . . . . . . 11, 12
Lam v. Kelchner,
304 F.3d 256 (3d Cir. 2002) . . . . . . . . . . . . . . . . . . 2, 7, 9
Maine v. Moulton,
474 U.S. 159 (1985)  . . . . . . . . . . . . . . . . . . . . . 11, 12, 13
Meraz v. Pfeiffer,
2017 WL 7101154 (C.D. Cal. Dec. 12, 2017)  . . . . . . . . 8
United States v. Crawford,
372 F.3d 1048 (9th Cir. 2004) . . . . . . . . . . . . . . . . . . . . 9
United States v. Henry,
447 U.S. 264 (1980) . . . . . . . . . . . . . . . . . . . . . . . . 11, 12

iv
Cited Authorities
Page
United States v. Massiah,
377 U.S. 201 (1964)  . . . . . . . . . . . . . . . . . . . 2, 11, 12, 14
Statutes and Other Authorities:
U.S. Const. Amend V . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 6
U.S. Const. Amend VI . . . . . . . . . . . . . . . . . . . 2, 11, 12, 13

1

INTRODUCTION
Respondent claims the informant did not threaten
Flores with assassination. Prosecution gang expert
Sergeant Williams explained that a “prison politic”
has authority from the Mexican Mafia to “run court”
to determine whether Flores violated a major Mexican
Mafia rule by committing a drive-by shooting, punishable
by “death.” RT 584-585; 612; 614.1 Flores’ confession was
the product of law enforcement coercion.
Flores was told that Mexican Mafia authorities
suspected him of committing a drive-by shooting. They
were “waiting for him;” not to converse, but to kill him,
unless he convinced the informant that he did not commit
a drive-by shooting. App.53a Essentially, Flores’ name
would only be “cleared” in exchange for his coerced
confession. App.55a; 57a.
Respondent argues that Flores’ confession was not
coerced because the informant never “uttered explicit
threats.” Opp.7. 2 The law doesn’t require explicit threats.
Similar to Dominguez, the informant played on Flores’
vulnerabilities: he was young, inexperienced with jail and
of low intelligence. Flores was distraught – on suicide

1. Reporter’s transcripts will hereinafter be referenced as
“RT” lodged by Respondent with the Central District of California,
Docket 91.
2. Respondent’s Opposition will hereinafter be referenced
as “Opp.”

2
watch. 3 PER 108. 3 Coercion of Flores was more egregious
than the coercion of the defendants in Fulminante or Lam.
Respondent discusses federal habeas standards,
which are inapplicable to a petition for a writ of certiorari.
Respondent alleges procedural bars. Fundamental
constitutional violations are never waived, since such a
claim includes that a conflict exists between this Court’s
decisions and those of lower courts on constitutional
principles. This case presents an important federal
question of law incorrectly decided by the lower courts.
Respondent claims Flores requested that this Court
create new standards for coerced confessions. Opp.15. To
the contrary, Massiah and its progeny are consistent with
Flores’ arguments that the right to counsel is violated
when the government actively elicits incriminating
statements.
The government intentionally delayed charging
Flores with murder, jailing him for a minor drug crime
to coerce a murder confession in circumvention of the
Sixth Amendment. Flores is asking this Court to find
that obtaining confessions in this manner denies the Sixth
Amendment right to counsel and substantive due process.

3. Flores’ Excerpts of Record filed with the Ninth Circuit
Court of appeals will hereinafter be referenced as “PER.”

3

ARGUMENT
I.	FLORES’ CONFESSION IS INADMISSIBLE
BECAUSE IT WAS COERCED IN VIOLATION OF
HIS FIFTH AMENDMENT RIGHTS, IN DIRECT
CONFLICT WITH ESTABLISHED LAW.
A.	Flores Was Threatened with Death.
Respondent’s claim that Flores chatted with the
informant and decided to casually confess is delusional.
The government selected Gilbert Bracknell as the
informant to coerce Flores because he was remarkably
skillful in coercing other defendants. Dominguez v.
Stainer, No. CV 12-8280 AG, 2014 WL 1779546 (C.D. Cal.
Apr. 30, 2014)
This informant avoided twenty-one years in prison for
his “cooperation,” received $2,500 for obtaining Flores’
confession and has obtained a total of $250,000 from the
FBI and DEA. RT 7, 869.
On October 16, 2008 the informant begins to play-out
his well-practiced script. 2 PER 55. The scheme unfolds
as follows:
Twenty-two-year-old Flores is placed in a cell adjacent
to the informant who poses as a high-ranking Mexican
Mafia “politic.” He informs Flores the “higher ups” from
the Mexican Mafia were “waiting for him” to arrive in
jail. App.53a.

4
Flores, as did Dominguez, had limited experience in
custody since both had been incarcerated primarily in a
youth facility.
The informant notifies Flores:
• 	His “name is out there” because the Mexican
Mafia believes he committed a prohibited driveby shooting and that the “job” is “pretty serious.”
App.52a-53a; 59a.
• 	The informant needs to “run court” to determine
if he violated the rules.
The informant asks Flores if he knows “the rules.”
App.53a. Flores affirms. The informant again asks, “if [he]
knows the rules of EME” (referring to the Mexican Mafia).
Ibid. The informant asks Flores for the third time if he
“knows where he [the informant] is coming from” Ibid.
Exacerbating Flores’ fear, the informant tells him
that the victim’s uncle is a high-powered Mexican Mafia
member. 2 PER 91. Flores pleadingly tells the informant
that he hopes that the victim’s uncle would “not use his
power” to kill him. App.60a.
Initially, Flores makes no incriminating statement.
The informant tells Flores, “All I need to know is you got
out of the car.” App.55a. He tells Flores that he needs
to “throw a jail letter” that “you’re down here.” The
prosecution expert explained that the informant will
send correspondence to inform the Mexican Mafia higher
authority whether Flores had followed or violated their
rules. RT 584. The expert explains that the violation is

5
punishable by death. RT 614. According to defense expert
Vasquez, he would have been “scared to death” if he was
in Flores’ position. RT 48.
Flores fearfully exclaims, “You got to [confirm there
was no drive-by] man.” 2 PER 60. The informant asks
again, “you got off?”… “out of your car?”, and Flores
states, “All the way homie.” Subsequently, Flores pleads,
“Can I send a letter?” Ibid. The informant reminds Flores
that he was ″playing with the big boys now.” 2 PER 77.
The informant assures Flores that he will send the
letter to “clear” his name. App.58a. Flores’ fear is evident
because he frequently asks whether his “name is dirty,”
the “status on his name”, if the informant sent the letter,
and when they would receive a response. App.59a;61a.
Later, Flores asks what the informant wrote in the
letter. Flores’ inexperience with the jail system is shown
where the informant explains that he wrote the letter in
code, not words. Flores acknowledges that he is unfamiliar
with this practice. App.63a. Flores admits he’s panicked.
2 PER 208.
Respondent takes the transcript out of context to fit
a false narrative. Specifically, respondent claims that the
informant did not threaten Flores because he was merely
reassuring Flores that his name was “not dirty” and that
he just wanted to talk. Opp. 8.
Flores reasonably understood that the informant
had authority to “run court” and render a verdict on
Flores’ fate. Flores was clearly coerced to make detailed
incriminating statements to “clear” his name about

6
the shooting incident. Contrary to the court of appeal’s
conclusion and respondent’s argument, Flores fell prey to
the informant’s skillful tactics.
B.	Flores’ Situation Was More Egregious Than
Fulminante, Lam, Dominguez, And Meraz.
1.

Arizona v. Fulminante

In Fulminante, the informant “vaguely” offered to
protect Fulminante from other inmates. In contrast,
Flores had to confess to the Mexican Mafia politic or be
assassinated. Fulminante confessed to the informant
about the details of killing his own stepdaughter, but also
to the informant’s wife upon his release from prison, when
protection from inmates was not necessary. This Court
still held that both confessions were inadmissible, as taken
in violation of his Fifth Amendment rights. Arizona. v.
Fulminante, 499 U.S. 279, 282 (1991).
Fulminante had spent a substantial part of his life
in prison, while Flores had spent no time in an adult jail.
Id. at 306. Moreover, Flores was increasingly vulnerable
to coercion as he was confined in a jail cell alone while on
suicide watch. 3 PER 108.
Although respondent contends that Flores strove to
not show weakness to the informant, he was conspicuously
concerned about his safety, unlike Fulminante. Id. at
304.4 This Court found that Fulminante’s confession was
4. Respondent contends that Flores was “bolstering”
himself. Opp.10 Young and inexperienced Flores wanted to appear
tough and unafraid. Knowing that his safety was fragile, Flores
wanted to curry favor with the informant. RT 588.

7
coerced by threat, despite that he stipulated that he was
not fearful and did not request protection from other
inmates. Ibid. Flores kept inquiring about the letter
because he was afraid of assassination.
2.

Lam v. Kelchner

Respondent attempts to distinguish Lam from this
case. However, the facts in this case were much more
egregious than in Lam. In Lam, the defendant was
convicted of hiring a Fuk Ching gang member to kill
Lam’s ex-husband’s wife. Lam v. Kelchner, 304 F.3d 256,
260 (3d Cir. 2002) Undercover officers posed as members
of the gang and vaguely told Lam they “would not be so
polite” if the money was not paid. It is unclear in Lam
that the defendant knew anything about the Fuk Ching
gang, while Flores certainly knew the violent reputation
of the Mexican Mafia. Flores understood that he faced
assassination if he violated a Mexican Mafia rule. If Lam
was coerced, there is no doubt Flores was as well.
3.

Dominguez v. Stainer

The same informant employed against Flores used
identical tactics to coerce Dominguez. Recognizing that
Dominguez’ confession was coerced, The Central District
Court overturned Dominguez’s conviction.
Dominguez and Flores were equally vulnerable.
They were similar in age, gang affiliation, and lack of
jail experience. If Respondent concedes that Dominguez
was vulnerable, it must concede that Flores was equally
vulnerable. Opp.12.

8
Dominguez was overturned despite gunshot residue
evidence and eyewitness testimony. Respondent claims
that forensic analysis of DNA on a firearm found at a party
that Flores attended identified him as one of the three
possible contributors. For this assertion, respondent cites
pages 1666-1667 of Volume 7 of the Reporter’s Transcript.
Opp.13. This cite is nonexistent and therefore Flores
requests that respondent’s claim be stricken from the
record. The only circumstantial evidence in Flores’ trial
was that a gun was found at a party that Flores attended
along with more than forty guests. RT 797-801; 803,804.
Not one of eight prosecution witnesses identified Flores
as the perpetrator. RT 539-782.
Respondent wrongfully contends that wiretaps
establish that Flores was retaliating against El Rio
members. Of 9,000 intercepted calls none establish that
Flores was connected to any of the murders or any other
retaliatory plans. RT 407-413.
4.

Meraz v. Pfeiffer

The District Court correctly denied relief to Meraz
because the informant did not tell Meraz that he was
“running court,” inform him the Mexican Mafia was
“waiting for him,” or say that “his name was out there.”
Meraz v. Pfeiffer, 2017 WL 7101154 (C.D. Cal. Dec. 12,
2017) Meraz truly volunteered details about the shooting
in that case.
C.	Respondent Misapplies The Law.
Respondent speciously argues that because the
informant never “uttered explicit threats” to Flores, the

9
threats were not credible. Opp.7. Respondent asserts that
the state appellate court concluded Flores’ confession
was not given in exchange for protection from “physical
harm.” Opp.10. Respondent and the state appellate court
misapplied the law. A credible threat need not be explicit.
Lam v. Kelchner, 304 F.3d 256, 264 (3rd Cir. 2002).
Further, psychological threats can render a confession
involuntary. See United States v. Crawford, 372 F.3d 1048,
1060 (9th Cir. 2004). “Running Court” is a threat.
Respondent’s assertion that Flores was “street smart”
confirms that he would have known of the ruthless nature
of the Mexican Mafia, precisely what made the coercion
so effective. Opp.8.
D.	The Coercive Statements Were Not Harmless.
Respondent argues that if the government coerced
Flores’ confession, the violation was harmless. Opp.12.
The prejudice of the coerced confession is apparent in
the prosecutor’s reliance on the confession in its opening
statement and closing argument to the jury. The confession
formed the foundation and structure of the prosecution’s
case. This Court has explained, ″[a] confession is like no
other evidence. Indeed, ‘the defendant’s own confession is
probably the most probative and damaging evidence that
can be admitted against him.’″ Arizona v. Fulminante,
499 U.S. 279, 296. A jury is unlikely to put a confession
“out of mind even if told to do so.’″ Ibid.
Here, the impact of Flores’ confession - a detailed
account of the offense - was profound. Flores had no
feasible way to persuade the jury that the confession was
not credible, except to argue that it was coerced - the very
reason it should have been suppressed.

10
Finally, other evidence of Flores’ guilt was weak.
Respondent cannot prove beyond a reasonable doubt that
without the confession Flores would have been convicted.
Chapman v. California (1967) 386 U.S. 18, 36. Thus,
this Court should grant Flores’ petition and reverse his
conviction.
II.	FLORES IS NOT REQUESTING THIS COURT
TO ADOPT A NEW STANDARD OF LAW; BUT
RATHER TO SETTLE THE LAW CONCERNING
C ASES W HERE THE G OV ERN M ENT
EMPLOYED UNETHICAL TACTICS TO OBTAIN
CONFESSIONS IN CIRCUMVENTION OF THE
RIGHT TO COUNSEL.
Had Flores been formally charged with murder, it
is virtually inconceivable that he would have confessed
to murder. The government’s circumvention of Flores’
right to counsel allowed the police to employ a highlyexperienced informant to make credible death threats.
To do so, the government purposefully charged Flores
with a minor drug crime, evading his right to counsel for
the murder charge.
If respondent were correct that the government had
overwhelming evidence without Flores’ confession, why
did it not file murder charges without using an unethical
scheme? The prosecution understood that without Flores’
confession, a conviction would not be plausible.
The scheme in this case was:
• 	The prosecution is determined to prosecute young,
inexperienced Flores for murder.

11
• The evidence is insufficient.
• Flores is arrested for a minor pretext drug crime.
• 	The prosecution holds Flores in custody for the
minor charge.
• 	In an adjoining cell, the prosecution places a
professional informant posing as a Mexican Mafia
official to coerce a murder confession from Flores.
• Flores has no access to counsel and is alone on
suicide watch.
• 	To save his own life, Flores confesses.
• 	Once Flores is charged with murder, he formally
has the privilege against self-incrimination and
the right to counsel.
• Flores’ constitutional rights and privileges are
useless given the prosecution has coerced the
murder confession.
A.

Massiah and Its Progeny Suppor t That
an Informants’ “Active Elicitation” of
Incriminating Statements Constitutes a Sixth
Amendment Violation.

Respondent falsely asserts that Flores is requesting
this Court to a create new standard for coerced
confessions. Opp.15. To the contrary, Massiah, Henry,
Moulton, and Kuhlmann are consistent with Flores’
arguments. Prosecutors have learned to circumvent the

12
standards set in Massiah. United States v. Massiah, 377
U.S. 201 (1964).
The defendant’s in Massiah, Henry, and Kuhlmann
were interrogated by an informant after the right to
counsel had attached. The primary focus of these cases
was the manner whereby the confessions were extracted.
This Court held that a Sixth Amendment violation occurs
when the government actively elicits incriminating
statements. Kuhlmann v. Wilson, 477 U.S. 436, 459 (1986).
This Court noted that the government is responsible
for acts it “must have known” will lead to constitutional
violations. United States v. Henry, 447 U.S. 264, 274 (1980).
Specifically, “confinement may bring into play subtle
influences that will make [an individual] particularly
susceptible to the ploys of undercover Government
agents…” Id. at 271.
The abuse of undisclosed interrogation by a police
surrogate who uses techniques that are equivalent of direct
police interrogation are constitutional violations since they
don’t occur “by luck or happenstance.” Kuhlmann Id. at
459. Moulton held that the “government has an affirmative
obligation not to circumvent the protection afforded by
counsel.” Maine v. Moulton, 474 U.S. 159, 171 (1985).
While Flores was ostensibly in custody for a minor
drug charge, he was held solely to extract his confession
to murder, a crime for which the government clearly
intended to charge him.
In Moulton, the defendant confessed to his codefendant
who acted as a government agent and Moulton made

13
incriminating statements about charged and “pending”
crimes. This Court affirmed the Maine Supreme Court’s
finding that the statements were inadmissible. This court
held because the “express purpose” of the meeting was to
discuss the “pending charges,” and that the government
concealed the fact that the informant was a state agent,
the police denied Moulton the opportunity to avail himself
of the right to counsel. Ibid.
Here, murder charges were a formality. The police
had fully investigated the case and sought a confession
to make conviction virtually certain. Allowing police
and prosecutors to postpone the filing of charges until a
confession is extracted eviscerates the right to counsel.
B. Cobbs’ “Offense Specific” Rule Is Inapplicable
Here.
The circumstance in this case are vastly different
than in Cobb. In Cobb, the defendant was indicted for
burglary and granted counsel. A woman and her infant
were missing from the burgled house. Cobb denied
involvement with their disappearance. Upon release on
bond, he confessed to his father that he murdered the
woman and child. Cobb’s father provided a statement to
the police, an arrest warrant was issued, and police took
Cobb into custody. Cobb then waived Miranda rights
and voluntarily confessed to the murders. Texas v. Cobb,
supra, 532 U.S. 162, 164-168.
Unlike Flores, Cobb was not coerced in any way
and the decision cannot be applied here. Although Cobb
moved to suppress the confession, this Court held that the
Sixth Amendment is offense specific and Cobb’s voluntary
confession was admissible.

14
In stark contrast, Flores, reasonably believed the
Mexican Mafia “were waiting for him” for a suspected
drive-by shooting, and he would be assassinated for such
a violation. App.53a.
Unlike Cobb, Flores had no desire to confess or
make incriminating statements to the police. Flores was
concerned that the officers might hear their conversation
but was assured by the informant that it would be
considered “entrapment.” App.62a.
Flores is not asking this Court to create a new rule or
expand precedent. He is asking this court to rein in police
and prosecutors who violate the constitutional protections
which prohibit active elicitation of incriminating
statements. Massiah, 377 U.S. at 204.
Respondent ignores these decisions and instead claims
that the petition is procedurally barred, distracting from
serious constitutional violations. Opp.14.
In sum, the balancing factors that Flores proposed
will limit future injustices such as those that occurred
in this case. (see cert p. 34). If this Court upholds the
government’s tactics, a defendant’s Sixth Amendment
rights can be asserted only where they have no value.

15

CONCLUSION
The petition for a writ of certiorari should be granted.
			Respectfully Submitted,
Orly A hrony
Counsel of Record
A hrony A ppeals Law Group
401 Wilshire Boulevard, 12th Floor
Santa Monica, California 90401
(310) 743-7830
orly@ahronyappeals.com
Counsel for Petitioner
December 29, 2020

